u.s. department of the interior
office of inspector general




      Semiannual report to the congress




                            October 2006
All photos courtesy of
Bryan Brazil/OIG
Message From the Inspector General

    I am pleased to present the results and accomplishments of the Office of Inspector     RT
                                                                                             M                      ENT OF TH
                                                                                                                             E
                                                                                                                                 I




                                                                                                      A




                                                                                                                                 N
General (OIG) from April 1 through September 30, 2006. During this reporting period,




                                                                                                    EP




                                                                                                                                     TE
                                                                                              U.S. D




                                                                                                                                       RIO
we have continued to demonstrate our commitment to a results-driven office that




                                                                                                                                        R
                                                                                              �                                         �


effectively conducts its mission on behalf of the American public, the Department of




                                                                                                                                       AL
                                                                                              OF
                                                                                                    Ag
                                                                                                      en




                                                                                                                                     ER
                                                                                                FI
                                                                                                          of




                                                                                                        ts
                                                                                         E                   P   osi




                                                                                                   C
the Interior (DOI), and the Congress. The major focus of our efforts during this period                             tive




                                                                                                                                 N
                                                                                           OF                            Ch
                                                                                                                            GE
                                                                                                                     ange
                                                                                                                  INSP
                                                                                                                      ECTOR

has been the analysis of security issues impacted by Internet use at DOI, as well as the
growing use of the Internet by DOI employees, some of which benefits the DOI mission and
some of which does not.

     As the Internet is more widely accepted as a source for authoritative materials, it enables all
of us to work smarter, improving our work products on the job and helping us to envision new
ways of creatively approaching DOI’s land management responsibilities. We depend on Internet
systems to help us get our jobs done and get them done more effectively. However, like any other
system, the Internet is prone to vulnerabilities, especially to those created by individuals interested
in obtaining privileged data that does not belong to them. To ensure that appropriate protections
are in place to prevent such unauthorized actions, the OIG randomly tests DOI security systems
to ensure that important information is safeguarded and that it can be made available only to those
authorized to use it.

     In this Semiannual Report, we highlight our review of DOI personal Internet use, which we
outlined in our report, “Excessive Indulgences: Personal Use of the Internet at the Department of
the Interior.” We found that employees continue to access sexually explicit and gambling Web
sites despite being prohibited from doing so by federal regulation and DOI policy. We were
disturbed to find that DOI employees spent a significant amount of time at Internet auction and
online gaming Web sites, costing an estimated 104,221 hours in potential lost productivity
annually. As shown in our report, these activities expose DOI to vulnerabilities, including
compromised system integrity, increased risk of legal liability, and waste and abuse of DOI
resources, as well as violating the public trust.

    We also evaluated DOI’s computer network, the Enterprise Services Network (ESN), and
performed penetration testing on information systems for numerous DOI bureaus. We believe
ESN will increase DOI’s security capabilities; however, we found that security application, which
remains with the bureaus, continues to lead to security risks and vulnerabilities. In addition, 50
percent of our tests successfully penetrated ESN networks. In our report, we recommended that
DOI use ESN’s testing capabilities to analyze bureau systems and improve security. DOI and the
OIG are pursuing this continuous monitoring concept, using data from such “attack metrics” to
help ensure creation of more real-world security measures to enhance annual Federal Information
Security Management Act (FISMA) reporting. Our annual FISMA evaluation showed continued
progress by DOI; however, it also identified specific weaknesses in DOI’s Certification and
Accreditation process as well as in the existing IT configurations.




                          Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
              Another one of our IT security evaluations looked at DOI’s Plan of Action and Milestone
          (POAM) process — which helps plan, implement, evaluate, and document actions needed to
          address deficiencies in information security policies, procedures, and practices. Although we
          found that the POAM process has improved since our previous review, we identified a number
          of areas where deficiencies continue to exist. We also believe the POAM process needs higher-
          level management attention and involvement to ensure an accurate reporting process.

              It is my goal that the work of the OIG — including our recent reviews of DOI Internet
          usage, network security, and information security policies — helps underscore the importance
          of DOI’s responsibility to manage its resources effectively. Whether we are turning on our
          computers for the first time in the morning to go about our assigned tasks or we are decision
          makers responsible for ensuring that those tasks are effectively carried out, it is our duty as
          federal employees to ensure we protect the public trust.




                                                                  Earl E. Devaney
                                                                  Inspector General




ii   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                                                                                                  Table of Contents



Table of Contents                                                                                                                               Page
Statistical Highlights.............................................................................................................................ii
OIG Organization Chart.......................................................................................................................iv
Mission and Top Management Challenges...........................................................................................v

Significant Audits, Evaluations,
Assessments, and Investigations
Department of the Interior....................................................................................................................1
Bureau of Indian Affairs....................................................................................................................... 8
Minerals Management Service........................................................................................................... 13
National Park Service......................................................................................................................... 14
Office of Insular Affairs...................................................................................................................... 15
U.S. Fish and Wildlife Service............................................................................................................ 18
U.S. Geological Survey....................................................................................................................... 20

Appendixes
1.	    Summary of Audit and Related Activities
       From April 1, 2006, Through September 30, 2006 . .................................................................. 21
2.	    Reports Issued During the 6-Month Period That Ended
       September 30, 2006.................................................................................................................... 22
3.	    Monetary Impact of Audit and Evaluation Activities From April 1, 2006,
       Through September 30, 2006 . ................................................................................................... 25
4.	    Audit and Evaluation Resolution Activities . ............................................................................. 26
5.	    Summary of Audit and Evaluation Reports Over 6 Months Old
       Pending Management Decisions at September 30, 2006 . ......................................................... 29
6.	    Summary of Performance Audit, Financial Audit, and Evaluation Reports
       Over 6 Months Old Pending Corrective Action at September 30, 2006 . .................................. 32
7.	    Summary of Insular Area Reports With Open
       Recommendations Over 6 Months Old ..................................................................................... 35
8.	    Reports Issued on Information Security..................................................................................... 37
Cross-references to the Inspector General Act .................................................................................. 38
General Information . ......................................................................................................................... 39




                                         Semiannual Report to the Congress - April 1, 2006 - September 30, 2006                                         
Statistical Highlights



            INVESTIGATIONS
            STATISTICAL HIGHLIGHTS
            April 1, 2006, Through September 30, 2006
            Investigative Activities
            Cases Closed................................................................................................................................. 285
            New Cases Opened....................................................................................................................... 204
            Hotline Complaints/Inquiries Received.......................................................................................... 97

            Criminal Investigative Activities
            Indictments/Information................................................................................................................. 20
            Convictions..................................................................................................................................... 25
            Sentencings..................................................................................................................................... 21
                   - Jail..........................................................................................................................................................54 months
                   - Probation .............................................................................................................................................780 months
                   - Community Service.............................................................................................................................1,051 hours
                   - Criminal Judgements/Restitutions...........................................................................................................$162,197
            Criminal Matters Referred for Prosecution..................................................................................... 44
            Criminal Matters Declined.............................................................................................................. 39

            Civil Investigative Activities
            Civil Referrals................................................................................................................................... 5
            Civil Declinations............................................................................................................................. 5

            Administrative Investigative Activities
            Removals........................................................................................................................................... 5
            Downgrades...................................................................................................................................... 2
            Retirements....................................................................................................................................... 4
            Suspensions....................................................................................................................................... 2
            Resignations...................................................................................................................................... 7
            Reprimands/Counseling.................................................................................................................. 21
            Reassignments/Transfers.................................................................................................................. 2
            General Policy Actions................................................................................................................... 12
            Debarments....................................................................................................................................... 7
            Administrative Recoveries..................................................................................................... $32,782


     ii     Semiannual Report to the Congress - April 1, 2006
                                                October        - September
                                                          1, 2005           30,2006
                                                                   - March 31,  2006
                                                                                                                         Statistical Highlights



AUDITS
STATISTICAL HIGHLIGHTS
April 1, 2006, Through September 30, 2006
Audit and related Activities

Reports Issued................................................................................................................. 29

Performance Audits, Financial Audits, Evaluations, and Verifications....................................... 9
Contracts and Grant Audits........................................................................................................ 17
Single Audit Quality Control Reviews........................................................................................ 3

Audit and Evaluation Impacts
Total Monetary Impacts............................................................................. $752,861
Questioned Costs (includes unsupported costs).............................................................. $241,720
Recommendations That Funds Be Put to Better Use...................................................... $511,141
Lost or Potential Additional Revenues........................................................................................ 0

Audit and Evaluation Recommendations Made....................................... 73
Audit and evaluation Recommendations Resolved.............................. 79




                                       Semiannual Report to the Congress - April 1, 2006 - September 30, 2006                                 iii
     OIG Organization Chart




                                         OIG Organization Chart
                                                                                                                       Associate Inspector General
                                                                  Inspector General                                        for External Affairs
            Office of General Counsel                                                                                  Associate Inspector General
                                                                   Deputy Inspector General                           for Whistleblower Protection


                 Assistant Inspector                                                                                         Assistant Inspector
                                                                           Assistant Inspector
                    General for                                                                                           General for Administrative
                                                                           General for Audits
                   Investigations                                                                                               Services and
                                                                                                                          Information Management

                                                                  Principal Deputy          Deputy Assistant
         Deputy Assistant               Deputy                   Assistant Inspector       Inspector General                Principal      Deputy
            Inspector                  Assistant                   General - Field           Headquarters                    Deputy       Assistant
           General for                Inspector                      Operations               Operations                    Assistant     Inspector
          Investigative              General for                                                                            Inspector      General
             Support                Investigations                                                                          General         CIO

                                                                                                                             Human         Information
                            Program                      External                    Central                                Resources      Technology
                            Integrity                     Audits                     Region               Financial        Management
                                                                                                           Audits                            Division
                            Division                    Reston, VA             Lakewood, CO                                  Division
                                                                              Albuquerque, NM

                                                                                                                                           Information
          Western Region                                           Western Region                                          Financial         Security
           Sacramento, CA          Central Region                                         Program Analysis
                                   Lakewood, CO                     Sacramento, CA               and                      Management         Division
            Portland, OR                                             Honolulu, HI                                          Division
            Honolulu, HI          Albuquerque, NM                                         Technical Support
                                     Tulsa, OK                      St. Thomas, VI


                                                Eastern Region                                                             Operations
                                                                       Northern Region                                      Support
                                                 Atlanta, GA             St. Paul, MN
                                                 Herndon, VA                                                                Division
                                                                        Rapid City, SD
                                                New York, NY             Billings, MT




          Special                    Quality                Policy and                    Technical            Computer
         Initiatives                Assurance                Planning                     Support               Crime
            Unit                      Unit                     Unit                         Unit




iv      Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                          Significant Audits, Evaluations, and Investigations



Mission and Top Management
Challenges for the Office
of Inspector General
Mission
    The mission of the OIG is to promote excellence, integrity, and accountability in the programs, operations,
and management of DOI.

Responsibilities
    The OIG is responsible for independently and objectively identifying risks and vulnerabilities that directly
impact, or could impact, DOI’s ability to accomplish its mission. We are required to keep the Secretary and the
Congress fully and currently informed about problems and deficiencies relating to the administration of DOI
programs and operations. Effective implementation of this mandate addresses the public’s demand for greater
accountability and integrity in the administration of government programs and operations, and addresses the
demand for programs that work better, cost less, and get the results Americans care about most.

Activities
     The OIG accomplishes its mission by conducting audits, evaluations, assessments, and investigations relat-
ing to the programs and operations of DOI. Our activities are tied directly to DOI’s major responsibilities and
are designed to assist DOI in developing solutions for its most serious management and program challenges,
most notably cross-cutting or DOI-wide issues. These activities are also designed to ensure that we keep
critical issues prominent, which greatly influences key decisionmakers and increases the likelihood that we
will achieve desired outcomes and results that benefit the public.



                       DOI’s Top Management Challenges
    Financial Management

    Information Technology

    Health, Safety, and Emergency Management

    Maintenance of Facilities


    Responsibility to Indians and Insular Areas

    Resource Protection and Restoration

    Revenue Collections

    Procurement, Contracts, and Grants


                            Semiannual Report to the Congress - April 1, 2006 - September 30, 2006                 
     Significant Audits, Evaluations, and Investigations




vi   Semiannual Report to the Congress - April 1, 2006 - September
                                                         October 30,30,
                                                                     2006
                                                                        2006
                       Significant Audits, Evaluations, and Investigations



        Department Of
        The Interior
        Senior Officials Violate
        Standards of Ethical Conduct
             The OIG investigated allegations that senior officials in the
        Office of the Special Trustee (OST) created an appearance of
        preferential treatment toward Chavarria, Dunne & Lamey (CD&L),
        an accounting firm performing contract work for OST, by
        socializing, exchanging gifts, and exerting pressure on OST staff
        to award a sole-source contract, as well as follow-up contract work,
        to CD&L. Our investigation confirmed that four senior OST
        officials created an appearance of preferential treatment. This vio-
        lates the Standards of Ethical Conduct for Employees of the
        Executive Branch, as well as an internal OST memorandum
        directing “Arms Length Dealings With Contractors.”

            During the time the trust-fund accounting and risk-management
        services contract expanded, the four senior OST officials engaged
        in extensive external socializing with CD&L executives, including
        accepting gifts of meals and drinks, traveling to a major golf event,
        golfing recreationally, and accepting hospitality at personal
        residences. In addition, OST contract personnel felt pressured by
        these senior officials to continue to award contract work to CD&L.

        Review of Internet Use Reveals
        Excessive Indulgences
             Our review of DOI personal Internet use found that employees
        continue to access sexually explicit and gambling Web sites despite
        being specifically prohibited from doing so by federal regulation
        and DOI policy. Furthermore, while not specifically prohibited,
        computer users spent significant time at Internet auction and online
        gaming Web sites, costing an estimated 104,221 hours in poten-
        tially lost productivity annually. These activities expose DOI to
        threats of compromised system integrity, increased risk of legal
        liability, and potential public embarrassment.

            Four bureaus and offices have implemented their own programs
        to monitor and block inappropriate Internet use with some success.
        Yet, DOI has no unified, coherent, or effective program
        encompassing all bureaus and offices.

            Efforts to implement such a monitoring and blocking program
        are hampered by resistance from some bureaus. Although some
        computer users have been disciplined for policy violations, the

Semiannual Report to the Congress - April 1, 2006 - September 30, 2006          
    Significant Audits, Evaluations, and Investigations


                                          number of disciplinary actions are minimal compared to the level of
                                          activity we found. This suggests that computer users inappropriately
                                          access the Internet without fear of consequence. We believe that
                                          misuse of DOI Internet resources will continue and possibly increase
                                          without strong and effective controls.

                                          Slow Progress
                                          Implementing Reform
                                              As part of our ongoing examination of DOI’s law enforcement
                                          programs, we issued our second report detailing the progress made
                                          toward implementing the Secretary’s July 2002 directives for law
                                          enforcement reform. Once again, our review found that the pace of
                                          implementing these directives remains slow. Nearly 4 years after the
                                          directives were issued, only 9 of the 25 have been fully implemented.

                                              DOI and its bureaus have improved the coordination and account-
                                          ability within law enforcement programs. Actions include creating
                                          senior-level law enforcement and security positions, implementing
                                          a formal budget review process, and developing law enforcement,
                                          security, and emergency management policies for all of DOI.

                                               Although well intentioned, DOI’s Office of Law Enforcement,
                                          Security, and Emergency Management continues to struggle with its
                                          policy and oversight role as this impacts bureau law enforcement,
                                          security, and emergency management programs. In addition, some
                                          of the bureaus’ actions demonstrate reluctance to fully implement
                                          numerous directives. For example, bureaus have not sufficiently
                                          addressed accountability of non-law enforcement managers
                                          supervising law enforcement positions. Also, they have not yet
                                          established necessary staffing models.

                                          Investigation of Deputy
                                          Assistant Secretary, Fish
                                          and Wildlife and Parks
                                               The OIG investigated allegations that David Smith, Deputy
                                          Assistant Secretary for Fish and Wildlife and Parks, inappropriately
                                          designated Houston as a port of entry under the Endangered
                                          Species Act to allow a personal friend, who was both a taxidermist
                                          and a Safari Club International (SCI) executive, to import wildlife
                                          and wildlife products. Our investigation showed Smith’s involvement
                                          in the Houston port designation was inappropriate, given his personal
                                          relationship with individuals benefiting from the designation. Our
                                          investigation also examined the allegation that Smith shot a bison
                                          while visiting his friend’s ranch and then accepted this prohibited
                                          gift as a gratuity while attending an annual SCI conference. We
                                          determined that Smith failed to comply with regulations governing

   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                         Significant Audits, Evaluations, and Investigations


acceptance and disposition of prohibited gifts under the rules and standards set forth in the Standards of Ethical
Conduct for Employees of the Executive Branch.

Selling Counterfeit Native American
Jewelry Leads To Criminal Charges
    In August 2004, a Maryland tourist purchased a bracelet from the Silver Bear Trading Company in Gallup,
New Mexico. According to Amro A. Al-Assi, the store’s proprietor, the bracelet had been hand-crafted by well
known Native American artist Jesse Monongya. The tourist subsequently met with Monongya, who examined
the bracelet and identified it as an unauthorized counterfeit reproduction of one of his designs. Monongya, a
member of the Indian Arts and Crafts Board (IACB), reported the fraud to the IACB and the OIG.

    Following an extensive investigation, on July 7, 2006, a criminal complaint was filed in the McKinley
County Court in Gallup, New Mexico, charging Amro A. Al-Assi with fraud. If convicted, Al-Assi may be
sentenced to as much as 18 months and fined up to $5,000.

    This investigation illustrates the findings of an OIG review undertaken to validate and quantify the issue
of counterfeit Indian arts and crafts. The review was conducted from October 2004 through February 2005. It
produced a report titled, “Indian Arts and Crafts — A Report on Misrepresentation.”

DOI’s Plan of Action and Milestone Process
     The OIG evaluated DOI’s Plan of Action and Milestone (POAM) process — which helps plan, implement,
evaluate, and document actions needed to address deficiencies in information security policies, procedures, and
practices. We found that the POAM process has improved since our previous review in FY 2005.
Bureaus have made significant progress, particularly those with dedicated POAM coordinators. We found
that 98 percent of the weaknesses reported as completed to the chief information officer by the bureaus in the
POAM for the first quarter of FY 2006 were completed. This represents nearly a two-fold improvement since
our last POAM review. The Office of the Chief Information Officer (OCIO) has developed a good POAM
standard, which, once implemented and adhered to, should resolve many issues we identified in this evaluation.

    We also identified a number of areas needing improvement. A number of specific deficiencies relate to
implementing the POAM process at the Office of the Secretary, including the OCIO’s own POAM. The OCIO
has yet to provide an automated POAM solution for DOI, which we feel needs higher level management
attention and involvement if the OCIO is going to relieve DOI from a cumbersome, resource intensive, and
potentially inaccurate reporting process. We also have concerns with the OCIO’s quality assurance process,
particularly when quarterly performance measures are sent to the Office of Management and Budget (OMB).
We found instances of inaccurate information forwarded to OMB, an area that an automated solution
can improve.

DOI’s Enterprise Services Network
    The OIG evaluated DOI’s computer network, the Enterprise Services Network (ESN), from January
through May 2006. We found that the foresight and planning devoted to ESN network security demonstrates
a solid understanding of security best-practices. Most certainly, ESN will increase DOI’s security capabilities,
as well as its network performance. However, application security, which remains with the bureaus, continues
to present attackers with targets of opportunity. Presently, the ESN has no control of these applications and
the networks that make them accessible to the public. Until this issue is addressed, ESN cannot provide the


                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006                
    Significant Audits, Evaluations, and Investigations

                                          level of security promised by the OCIO. We also found a number of
                                          problems with DOI’s IT governance, leadership, and capital planning
                                          and investment control process. The DOI OCIO has multiple policy
                                          and operational roles that present separation of duties and conflict-of-
                                          interest concerns.

                                          Results of Penetration Testing
                                              The OIG conducted external penetration tests of information
                                          systems managed by the Minerals Management Service (MMS), the
                                          U.S. Fish and Wildlife Service (FWS), the National Business Center
                                          (NBC), and the Office of Surface Mining (OSM). Our goal was to
                                          assess the effectiveness of DOI ESN security, as well as ESN and
                                          bureau incident response capabilities. While ESN implementation
                                          has improved DOI IT security, we still penetrated ESN networks in 50
                                          percent of our tests. ESN security features appear ineffective, par-
                                          ticularly for bureau applications accessible through the Internet. Our
                                          report recommended that the OCIO use ESN’s testing capabilities to
                                          analyze bureau systems, especially OSM and FWS, which we were
                                          able to penetrate.

                                          NBC Insider Threat Evaluation
                                               The OIG evaluated the effectiveness of NBC’s internal network
                                          security control architecture. We wanted to understand the extent to
                                          which someone with insider knowledge and physical access to NBC
                                          facilities could obtain additional, but unauthorized, access to critical
                                          information technology. We demonstrated that unauthorized access
                                          can be obtained by an attacker with a basic user account on an NBC-
                                          Reston workstation. In addition, we noted three weaknesses that
                                          allowed normal user access to be elevated to system administrator
                                          status, thereby permitting an intruder to access, delete, or change sen-
                                          sitive government data and personal privacy information. We
                                          provided our analysis to the OCIO, requesting that the bureaus be
                                          notified of these weaknesses and that we be informed of any actions
                                          taken to address them. We also provided two technical briefings to the
                                          NBC IT Security Manager and NBC-Reston technical staff.

                                          NBC Drug Testing System
                                          Vulnerability Assessment
                                               On June 24, 2006, the OIG conducted vulnerability assessment
                                          testing on NBC’s Drug Testing System (DTS). DTS is operated by
                                          Pembrooke Occupational Health, Inc. (Pembrooke), a third-party
                                          service provider. The DTS system contains very sensitive Personal
                                          Identifying Information to which Privacy Act protections apply. DTS
                                          is a Web-enabled system that allows NBC clients to schedule drug
                                          and alcohol testing, track testing status, and report testing results, as
                                          required by Department of Health and Human Services, as well as

   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                       Significant Audits, Evaluations, and Investigations


Department of Transportation regulations. The vulnerability assessment team noted the presence of
several vulnerabilities that an attacker could leverage to gain unauthorized access to the Web application and/
or server. Due to the risk of denying legitimate users access to the system, we shortened our testing.
However, an attacker would have continued to develop ways to compromise the Web server, the application,
and/or the underlying operating system.

    The OIG made a number of recommendations to help NBC prioritize its contractual activities with DTS.
Given the federal government’s recent problems safeguarding Personal Identifying Information, as well as
NBC’s significant responsibilities, DOI needs to ensure the confidentiality, integrity, and availability of this
system. Also, NBC should arrange with the service provider to conduct more detailed penetration testing,
using an independent entity and then sharing the results with the OIG.

Effectiveness in Key Areas Could Improve HFR
    The Hazardous Fuels Reduction (HFR) Program is a key component in DOI’s efforts to reduce
catastrophic wildfires, particularly in areas adjacent to rangelands and forests where housing developments are
on the rise. By removing dried-out brush and trees, HFR treatments help reduce the number and intensity of
wildfires threatening lives and property.

    DOI has made progress implementing its HFR Program, specifically working with the U.S. Forest Service
(USFS) to develop a coordinated response to severe wild land fires, as well as to establish the collaborative
structure needed for an effective HFR Program. However, OIG found three key areas where program
performance could be improved:

u Developing a performance measure, in concert with USFS, that calculates reduction of wildfire risk, rather
  than the number of acres treated.

u Addressing delays in current DOI budgetary and carryover policies that restrict contracting for HFR treat-
  ments to the third and fourth quarters of the fiscal year.

u Collaborating with USFS to minimize cross-billing for HFR treatments and improve inter-departmental
  coordination in conducting these treatments.

Annual FISMA Evaluation
    The OIG completed its annual evaluation of the DOI IT security program, as required by the Federal
Information Security Management Act (FISMA). Fiscal Year 2006 testing and evaluation indicated that DOI
made progress in its system inventory, Plans of Actions and Milestones process, computer security incident
response capability, and oversight of its contractors. We observed a high level of commitment and
dedication from staff throughout DOI, who sometimes had to work with inadequate resources to improve
DOI’s IT security program.

      While progress has been made, DOI is not yet in full compliance with FISMA. Two major challenges
still remain in the quality of DOI’s Certification and Accreditation (C&A) practices and in its implementa-
tion of security configurations standards. Weaknesses in these two areas impact a broad set of federal security
requirements for adequate safeguarding of systems and information.

    DOI is in the midst of implementing a number of major IT projects aimed at consolidating, standardizing,
and improving its security. The DOI OCIO has issued several directives to keep these projects on schedule,
but inadequate human and capital resources in key IT areas continue to delay their implementation.

                              Semiannual Report to the Congress - April 1, 2006 - September 30, 2006               
    Significant Audits, Evaluations, and Investigations


                                         Scrutiny of Single Audits
                                         Identifies Deficiencies
                                              The Single Audit Act Amendments of 1996 require nonfederal
                                         entities expending federal awards equal to or greater than $500,000 (in
                                         any fiscal year) to obtain a single audit for that year. One responsibil-
                                         ity of the OIG is to conduct quality control reviews of selected audits
                                         conducted by nonfederal auditors. As part of this responsibility, we
                                         completed 116 reviews with various results, including:

                                         u One auditor referral was made to the American Institute of
                                           Certified Public Accountants and to a state board of accountancy
                                           for substandard work.

                                         u Five reviews resulted in auditors reissuing the reports to correct
                                           deficiencies.

                                         u Eight reviews found that the auditor either did not conduct
                                           sufficient tests of major programs or that the level of testing did
                                           not meet federal requirements.

                                            Also, the OIG completed three comprehensive Quality Control
                                         Reviews with various results:

                                         u In the National Fish and Wildlife Foundation audit for the year
                                           that ended September 30, 2004, the auditor conducted insufficient
                                           tests of one major program and reported federal award information
                                           inconsistently throughout the reporting package.

                                         u In the Picuris Pueblo audit for the year that ended December 31,
                                           2004, the auditor reported audit opinions and audit findings
                                           inconsistently throughout the reporting package.

                                         u In the Ute Mountain Ute Tribe audit for the year that ended
                                           September 30, 2004, the auditor reported audit findings
                                           inconsistently throughout the reporting package.

                                         Verification Reviews
                                             DOI managers are responsible for ensuring that actions agreed
                                         upon during the audit process have, in fact, been taken. As part of
                                         our ongoing strategy to ensure such implementation, we performed
                                         verification reviews of 45 recommendations from 8 prior audit reports.
                                         These reviews determine whether or not managers actually
                                         implemented the recommendations they reported having completed.

                                             Our review concluded that managers did not take appropriate ac-
                                         tions to implement 14 (35 percent) of the 45 recommendations they
                                         had reported as implemented. However, since one of these


   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                         Significant Audits, Evaluations, and Investigations


recommendations no longer applied, we proposed that it be considered closed and not implemented. As for the
other 13, the OIG requested that DOI reinstate them and take appropriate follow-up action.

Evaluating DOI System Inventories
    An accurate, complete IT systems inventory is essential to ensure that security measures are adequate to
protect IT systems and mission-critical data. During our FISMA review in 2005, we noted concerns with the
DOI IT systems inventory. Our objective was to determine whether DOI had an adequate IT inventory process.

     We reviewed DOI’s process for maintaining an accurate and complete IT systems inventory in its DOI En-
terprise Architecture Repository (DEAR). DOI has made significant improvements but still needs to increase
controls over the inventory process. Bureau chief information officers need to demonstrate greater accountabil-
ity by ensuring that their individual IT systems inventories are complete and accurate.

    We also noted the need for consistent DOI-wide or bureau-specific policies and procedures that provide
guidance on how to maintain IT systems inventories. Further, the DOI OCIO needs to develop and implement
specific policies and procedures to standardize oversight of the IT inventory process. Finally, not all IT systems
are properly designated in DEAR as certified and accredited, indicating managers have concluded that adequate
security controls are in place. We made four recommendations to help DOI improve its IT systems inventory
process.

Report on DOI Accuracy of Gross Estimated Savings
    Competitive sourcing helps the government decide whether to perform certain functions internally or to
privatize them. The OIG evaluated DOI’s gross savings estimate of FY 2004 competitive sourcing to deter-
mine its accuracy. Our evaluation showed that BLM, BOR, MMS, and NPS put significant effort into conduct-
ing the competitions. DOI’s reported savings of $17.9 million appeared to be incorrect because OMB guidance
was not always followed. This caused miscalculations. The OIG made four recommendations with which DOI
concurred and is now implementing.




                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006                
    Significant Audits, Evaluations, and Investigations




    Bureau of Indian Affairs
    Three Oklahoma Business Committee
    Officials Embezzle Casino Profits
        A multi-agency investigation involving the OIG, the FBI, the IRS, and the National Indian Gaming
    Commission culminated in the indictment and conviction of three officials with the Cheyenne and Arapaho
    Tribes of the Oklahoma Business Committee. Committee members James W. Pedro, Sr., and his wife,
    Lea E. Schantz, were charged in November 2005 with embezzlement and with making fraudulent statements.
    Peggy Bigpond, the committee secretary, was also charged with embezzlement. Subsequently, these three
    individuals pled guilty to all charges. They admitted to embezzling more than $286,500 from the business
    committee, which manages various tribal activities with funds from casino revenues.

         On March 1, 2006, the three received sentencing in the Western District of Oklahoma. The court sentenced
    Pedro to 30 months of federal incarceration and required him to repay $193,236 to the tribe and $6,277 to the
    Oklahoma Housing and Finance Agency. Schantz received 8 months of federal incarceration. She was ordered
    to restore $48,435 to the tribe and $6,277 to the Oklahoma Housing and Finance Agency. Bigpond was
    sentenced to 16 months of federal incarceration and ordered to repay $32,277 to the tribe.

    Investigation of Child’s Death
    at Chemawa Indian Boarding School
         The OIG investigated the death of Cindy Gilbert, a 16-year old girl in the custody of the Chemawa Indian
    Boarding School (Salem, Oregon). The young girl died after being placed in the school’s detention facility.
    She had been detained for being intoxicated while on school grounds. The OIG opened the investigation after
    learning that Bureau of Indian Affairs (BIA) senior management knew the school’s holding cell had failed to
    meet detention standards and that its continued use was a serious liability. Evidence indicated that senior of-
    ficials’ inaction, including the Director of the BIA Office of Indian Education Services and the Director of the
    Office of Law Enforcement and Security, resulted in an unsafe environment that contributed to Gilbert’s death.

    Tribal Employee Indicted for Theft
       On June 14, 2006, Mary M. Lewis, former bookkeeper for the Kialegee Tribal Town (KTT) in Wetumka,
    Oklahoma, was indicted in the Eastern District of Oklahoma on charges of embezzlement and theft from an



   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                        Significant Audits, Evaluations, and Investigations


Indian tribal organization, as well as theft from a federally funded program. Lewis pled guilty after
providing investigators with a signed and sworn statement admitting her activities. She is awaiting
sentencing. Originally, tribal officials believed that Lewis drafted payroll checks in her own name,
then forged the signatures of the KTT Secretary Treasurer and of Mekko Evelyn Bucktrot, the tribal
leader. During our investigation, we reviewed banking records provided by KTT and grand jury
subpoena. These showed that primarily Lewis drafted tribal checks to the IRS, signed by the KTT
Secretary Treasurer and by Mekko. Then she altered those checks to designate herself as the payee.
From February 2002 through September 2004, Lewis illegally cashed or deposited $299,887 of
KTT and BIA funds in local banks.

Entertainment Center Employee Pleads Guilty
   During a 4-month period, approximately $120,000 in cash disappeared from the Poarch Band of
Creek Indians Tallapoosa Entertainment Center (TEC) in Montgomery, Alabama.

    On December 1, 2004, OIG investigators interviewed TEC employee Frederick Burrell, who
admitted to conspiring with Kala Dennis to embezzle in excess of $120,000 from the casino. They
did this by altering cash issue sheets and forging the names of their co-workers. Burrell provided
investigators with a written statement and a consent form to access his bank records. Burrell
identified deposits made with stolen funds.

    On May 4, 2006, Burrell signed a plea agreement that included his acknowledgement of guilt to
one count of theft from a gaming establishment on Indian land. He will be sentenced to a
probationary term, with the first 6 months in home confinement. He has agreed to testify against
Kala Dennis in any future proceedings.

Casino Employee Pleads Guilty
    Marnekia Milner, a casino employee of the Poarch Band of Creek Indians, confessed to
stealing $10,000 from the casino. She provided a written statement, acknowledging her guilt.
Milner was charged by a Federal Grand Jury in the Middle District of Alabama with a one-count
indictment of theft by an employee of a gaming establishment located on Indian lands. An
arrest warrant was issued on January 20, 2006, the same date as the indictment. Then, on February
2, Milner was arrested, advised of her rights, booked, and processed by the U.S. Marshall Service
located in Montgomery, Alabama. She pled “not guilty” during her arraignment and was released
on $25,000 unsecured bond on her own recognizance. Finally, on July 21, 2006, Milner pled guilty.
Sentencing is scheduled for November 1, 2006.

Seven Tribal Council Members Arraigned
    A lengthy multi-agency investigation that included the IRS and the California Department
of Justice led to the indictments of former tribal Chairwoman Priscilla Hunter, former Vice Chair-
woman Iris Martinez, former Secretary Darlene Crabtree, former Treasurer Michelle Campbell,
former Historian Michael Hunter, former Member-at-Large Fred Naredo, and former Member-at-
Large Allan Crabtree of the Coyote Valley Band of Pomo Indians, located in Ukiah, California. The
seven were indicted for complicity to steal funds from the Coyote Valley Shodakai Casino. The
indictment outlines numerous charges that include conspiracy, misapplication of funds belonging to
a gaming establishment, obstruction of justice, and tax evasion.



                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006         
     Significant Audits, Evaluations, and Investigations




     Woman Sentenced for Counterfeiting
     GED to Obtain Financial assistance
         Edwina Pearl Alden, an enrolled member of the Crow Tribe of Indians, pleaded guilty in U.S. District
     Court, District of Montana, to one felony count of wire fraud and one felony count for making false statements
     to obtain federal education assistance. Alden admitted to using a counterfeit General Education Diploma (GED)
     to obtain federal financial assistance beginning in 1995. This continued until November 2004 and amounted to
     more than $40,000.

         She was sentenced to 10 months of electronically monitored home confinement and 36 months of
     supervised probation. In addition, Alden was ordered to repay $19,838 in restitution, plus a $200
     assessment fee.

     Former Fort Peck Officials Indicted for Fraud
         A Federal Grand Jury in Montana indicted Desiree Lambert, former Director of the Ft. Peck Department of
     Education, and her husband, Bernard Lambert, Jr., former Superintendent of the Brockton School District, on
     one count of conspiracy to defraud the United States, and one count of fraudulent claims. Desiree Lambert was
     also indicted on one count of making false statements and one count of theft from an Indian tribal organization.

         From November 26, 2001, to December 26, 2002, the couple defrauded DOI by obtaining payment of
     fraudulent invoices under a Public Law 93-638 contract that funded educational services on the Fort Peck
     Indian Reservation. The couple also obtained $12,000 from false claims submitted to BIA for grant writing
     services by Bernard Lambert that he never provided. The couple entered “not guilty” pleas during their arraign-
     ment. They await trial in the U.S. District Court in Great Falls, MT.

     School Clerk Convicted of Embezzlement
       At the conclusion of a 3-day trial, Patricia Paul, a former district clerk for the Heart Butte School District in
     Montana, was convicted of one count of theft from a local government receiving federal funds.

         The Heart Butte School District is federally funded. It provides educational services to Blackfeet Indian
     Reservation children. From May to July 2004, Paul drafted, issued, and negotiated fraudulent payroll warrants
     from the school district, which totaled $17,868 and were made payable to her. On September 7, 2006, Paul was
     sentenced to 16 months of incarceration, 24 months of supervised probation upon release, and restitution of
     $17,868. Prior to sentencing, Paul remitted the full balance of the restitution.



10   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                     Significant Audits, Evaluations, and Investigations


Former Crow Official Indicted for Lying
    Theodore J. Hogan, the former elected secretary of the Crow Tribe and former executive
director of the Crow Tribal Housing Authority, was indicted on three felony counts of submitting
false statements to the U.S. Attorney’s Office in Billings, Montana.

     In 1990, Hogan was convicted of conspiracy, bank fraud, and a false statement on a bank loan
application. These convictions led to 24 months of incarceration and restitution to the Crow Tribe
of $35,100. In connection with the restitution order, Hogan had to submit two documents (Finan-
cial Statement of Debtor and Individual Combined Interrogatories and Request for Production) to
the U.S. Attorney’s Office. These documents required detailed financial information about Hogan’s
business activities, wages, bank accounts, and personal assets. The U.S. Attorney’s Office needed
the documents to evaluate his ability to make the payments.

     Hogan intentionally misrepresented his financial assets and omitted significant financial and
business-related information on the documents he provided from May 2001 through March 2005.
These omissions minimized his monthly payments. Shortly before his indictment in April 2006,
Hogan remitted $18,550 as payment toward his restitution sentence. His case is scheduled for trial
in the U.S. District Court in Billings, Montana.

Ten Individuals Convicted of Corruption
    Allen Flying By, former tribal council representative for the Standing Rock Sioux Tribe’s
Running Antelope District, faced conviction by a federal jury in Aberdeen, South Dakota, for three
felony counts and one misdemeanor count of embezzlement and theft.

    Also, seven other former Running Antelope District officials pleaded guilty to theft and
embezzlement for their roles in the same case. These officials include Leslie Bobtail Bear, chair-
man; Virgil Standing Crow, vice chairman; Gayle Henry, secretary; Dale Weasel, planning com-
missioner; Jennifer White Eyes, planning commissioner; Leroy White, planning commissioner; and
Ralph Taken Alive, planning commissioner. Susie Long Elk, the former treasurer, and Alvina How-
ard, also a former planning commissioner, previously pleaded guilty to embezzlement and theft.

    All of the defendants that pleaded guilty in this case testified against Flying By at his trial.
Henry, Weasel, White Eyes, White, Taken Alive, and Howard were sentenced to probation and
ordered to pay restitution. Sentencing for the remaining individuals is pending.

     The case against the above-named officials concerned their roles in the disappearance of
approximately $100,000, essentially 10 percent of the $1 million the Standing Rock Sioux provided
to the district. These monies originated as federal compensation for land lost to the tribe due to con-
struction of the Oahe Dam and Reservoir on the Missouri River. The principal amount awarded to
the tribe, about $90.6 million, is held in trust by the federal government, and the tribe draws interest
from the fund.

    In addition to the Running Antelope officials, businessman Darrel Semmler was indicted for
paying a kickback to Flying By. The district purchased approximately $65,000 worth of horses and
equipment from Semmler and his family at the time he provided the alleged kickback to Flying By.
Semmler is awaiting trial.




                           Semiannual Report to the Congress - April 1, 2006 - September 30, 2006          11
     Significant Audits, Evaluations, and Investigations




     Housing Officers Accepted Illegal Gratuities
          Frank Joseph, a former housing officer with the BIA in Aberdeen, South Dakota, pleaded guilty to one
     felony count of illegally receiving gratuities. Sentencing is pending. Joseph administered a housing program
     that allocated approximately $2 million annually to Indian tribes and tribal organizations in North Dakota, South
     Dakota, and Nebraska. This program renovated dilapidated homes and purchased new homes for needy tribal
     members. The previously filed indictment charged that Joseph and Gilbert Kills Pretty Enemy, a former housing
     specialist working under Joseph’s supervision, agreed to accept payments from a manufactured home salesman
     to influence selection of the salesman’s company as the vendor for new homes purchased by tribes using the
     BIA funds.

         After their indictment, Joseph and Kills Pretty Enemy retired from the BIA. Kills Pretty Enemy’s trial is
     pending. The salesman who provided payments to Joseph and Kills Pretty Enemy passed away as the
     investigation began.

     Seven Casino Employees Sentenced for Theft
          Seven former employees of the Shooting Star Casino in Mahnomen, Minnesota, were prosecuted by the
     U.S. Attorney’s Office for conspiracy and theft from an Indian gaming establishment. They conspired to file
     false papers that reimbursed them for jackpots they never paid to casino customers. Roger S. Burnette, the prin-
     cipal conspirator, pleaded guilty and was sentenced to 3 years of probation and restitution of $2,500.
     Jennifer Burnette, Jesse Fairbanks, Lace Thompson, and Shallah Washington also pleaded guilty to theft. They
     were sentenced to 3 years of probation and restitution of $1,500. Todd Brault, who also was included on the
     indictment, pleaded guilty to theft from an Indian gaming establishment but has not yet been sentenced. One
     additional individual, Jason Leines, pleaded guilty and was sentenced in July 2006 to 2 years of probation and
     restitution of $6,681.

     Tribal Chairman Guilty of Mail Fraud
         On October 25, 2005, Darrell “Chip” Wadena, a former chairman of the White Earth Band of Chippewa
     Indians in Minnesota, and Guillermo Gonzalez, a used car dealer from Hollywood, Florida, were indicted for
     mail fraud and conspiracy to commit mail fraud after conspiring to register salvaged and unsafe cars through the
     motor vehicle offices of two northern Minnesota Indian reservations. Both men pleaded guilty. Wadena was
     sentenced to 5 years of probation. Restitution from Wadena is to be determined following the sentencing of co-
     defendant Gonzalez. Wadena was chairman of the White Earth Band for 20 years, until his conviction in 1996
     on 15 federal charges for fraud and theft. Gonzalez has not yet been sentenced.



12   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                        Significant Audits, Evaluations, and Investigations




Minerals Management Service
OIG Testifies on oil and gas lease grants
    The OIG had been asked by several members of Congress to investigate the
circumstances surrounding the granting of certain deep-water oil and gas leases on
federal lands in the Gulf of Mexico that did not contain provision for royalties payments. That investigation
is ongoing. However, the IG was asked to provide the Subcommittee on Energy and Resources of the Gov-
ernment Reform Committee, House of Representatives, with a status update. The Inspector General’s pre-
pared statement is located on the OIG Web site (www.doioig.gov) under “congressional testimony.”
In addition to the issue of royalty payments, the testimony and subsequent questioning by the Subcommittee
dealt with the general topic of accountability and ethics by DOI officials.

MMS Third-Party Provider Vulnerability Assessment
    During June 2006, the OIG conducted vulnerability assessment activities on an MMS application hosted
by US internetworking (USi). USi is a third-party service provider for MMS. We determined that the system
was reasonably secure, with security countermeasures commensurate with the data it hosts. Our automated
vulnerability scanning revealed no vulnerabilities on the Web site. However, manually conducted tests did
produce a substantial number of generic internal server error messages. This indicates that the application is
susceptible to denial of service attacks. We shortened our testing due to these errors. However, an attacker
would be likely to continue investigating them. Copies of the error messages have been forwarded to MMS to
help it determine the cause of the internal server problem and to minimize threats to the system’s availability.




                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006              13
     Significant Audits, Evaluations, and Investigations


     National Park Service
     Employee Sentenced For Kickbacks
         A complaint alleged that Samuel Oravec, a maintenance supervisor at Golden Gate
     National Recreation Area in California, instructed an employee to pay him kickbacks. This initi-
     ated an OIG investigation of Oravec’s activities, which determined that on six occasions, Oravec authorized
     an employee to submit false records for overtime pay and then solicited kickbacks as compensation.

         Oravec pleaded guilty to theft of government funds. He was sentenced to 12 months of supervised
     probation, $326 in restitution, and 71 hours of community service. In addition, NPS management terminated
     his employment.

     Ranger Convicted on Child Pornography Charges
        Andrew Lewis, a former NPS park ranger, was convicted in U.S. District Court in Massachusetts on one
     count of knowingly receiving multiple depictions of minors engaging in sexually explicit conduct. Lewis
     admitted to investigators that he used both his personal and government computers to view and download
     images of child pornography. Following indictment on the aforementioned charges, Lewis was placed on
     administrative leave. Before his criminal trial started, Lewis resigned from NPS.

     Monitoring Critical to Gateways Program
         In 1998, the Chesapeake Bay Initiative Act created the Gateways Network and Grant Program to promote
     public awareness and citizen involvement in restoring and conserving the Bay’s natural, cultural, historical, and
     recreational resources. The Act envisioned a two-pronged approach: (1) developing a network of gateways
     (e.g., parks, refuges, and historic sites) to increase Bay awareness and access and (2) establishing grants to
     fund projects supporting the increased access. The OIG found that the National Park Service (NPS) needs to
     improve its monitoring of these grants to ensure their timely completion and adequate fiscal review.

         Our review determined that NPS needs to improve its grant program oversight. Of the 23 projects
     reviewed, 18 were delayed from 9 months to nearly 3 years, and they lacked evidence of adequate cost
     reviews. In addition, none of the 23 projects met the Act’s dollar-for-dollar grantee matching requirements and
     the 10-percent limitation on administrative costs. The OIG recommended that NPS terminate relationships
     with grantees who failed to perform and that grant managers adequately review grant fund expenditures. NPS
     concurred with these recommendations and initiated actions to “strengthen the NPS guidance” for managing
     the program.




14   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                         Significant Audits, Evaluations, and Investigations




Office of Insular Affairs
Employee Falsifies Government Documents
     Roger Stillwell, an employee of the Office of Insular Affairs in Washington, D.C., pleaded guilty in U.S.
District Court in the District of Columbia for falsifying his yearly financial disclosure forms. Stillwell served
as the Desk Officer for the Commonwealth of the Northern Marianas Islands.

    Stillwell admitted accepting tickets to concerts and sporting events from disgraced lobbyist Jack Abramoff.
In return, he sent e-mails to Abramoff that contained internal communications between himself and his supervi-
sors. Also, Stillwell knowingly failed to report gifts provided by Abramoff, a prohibited source, in his fiscal
year 2003 Confidential Financial Disclosure forms.

    Stillwell first met Abramoff in the mid-90s when both worked as contractors for the Government of the
Northern Marianas Islands. Although Abramoff’s lobbying activities focused chiefly on Indian tribes, this case
provides insight into his activities at all levels of the Department of the Interior.

Loan Portfolio Problems Impede Economic Progress
    The Development Bank of American Samoa (Bank) has failed to effectively manage its loan portfolio, the
Bank’s largest asset and primary revenue source. Problems with loan portfolio management are long standing,
dating back more than a quarter century, and have been documented in numerous reports.

    The OIG identified a lack of accountability as the root cause. The Bank’s board and loan officers routinely
disregarded established loan policies when approving and monitoring commercial as well as home loans. The
result was a lack of transparency in the loan approval process and a perception that banking practices generally
favored the well-connected.

    The OIG concluded that without focused leadership and governance to instill such guiding principles as
integrity, excellence, and a sense of public mission in banking operations, the Bank cannot overcome a legacy
of mismanagement, as well as meet its mandated charter. The OIG made six recommendations to improve loan
portfolio management. The Governor concurred and has directed the Bank’s Treasurer to begin
implementation.




                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006               15
     Significant Audits, Evaluations, and Investigations




     Progress Made With Inspections and Training
         Recent progress has been made in the continued review of Compact activity in the Federated States of
     Micronesia (FSM), as well as in providing further capacity building opportunities to the Insular Areas Public
     Auditor Offices. These activities help improve investigative and auditing skills critical to effectively
     evaluating Compact funding usage and program accomplishments, as well as Compact accounting systems,
     controls, and reporting processes.

         The OIG performed several inspections in the FSM.
         Compact Infrastructure Grant Demonstrates Poor Project Planning and Questionable Contracting:
         The inspection raised concerns about FSM’s capability to effectively manage Compact Public Infrastruc-
         ture Sector Grant monies. The inspection disclosed that the FSM National Government:
        u Failed to properly plan for the timely construction of health and education infrastructure projects.

        u Entered into a less-than beneficial contract to establish an FSM National Government Project
          Management Unit for the subsequent design, engineering, and construction management of Compact-
          funded infrastructure projects. The contract contained conflict-of-interest and questionable
          procurement requirement clauses.

        u Implemented project management regulations that contain a conflict of interest.
         Status of Compact Trust Fund: Inspection of the FSM’s Compact Trust Fund revealed that oversight
         from the United States as well as FSM Trust Fund Committee members has failed to ensure that: (1) key
         positions are appointed in a timely manner, (2) annual financial and performance reports are prepared, and
         (3) resources are effectively invested. These conclusions were supported by an FSM Finance and Budget
         Resolution (November 16, 2005).
         The OIG also developed the following training opportunities:
         Mainland Training for Pacific Public Auditor Office Staff: The OIG provided stateside on-the-job
         training in Denver, Colorado, for two investigators from the Republic of Palau and two auditors from the
         Republic of the Marshall Islands. Similar training opportunities were also provided to two auditors
         from Palau.

         Onsite Training for FSM Public Auditor Staff: The OIG provided several Public Auditor Office staff
         with inspection training that focused on improving report productivity and timeliness. Requests from
         other Public Auditor Offices for similar training emphasizing grant review and oversight has been
         scheduled for the end of 2006.


16   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                         Significant Audits, Evaluations, and Investigations


    Training for Office of Insular Affairs (OIA) Staff: The OIG provided training that included
    developing Compact financial and reporting review procedures. The purpose of the training was to
    improve OIA’s oversight of Sector activities in the FSM and the Republic of the Marshall Islands.


Sixteen-Count Indictment In GRM Case
    The FBI and the OIG’s Virgin Islands (VI) office jointly investigated Global Resource Management, Inc.
(GRM) after receiving information that a substantial contract for federally mandated sewer repairs went to this
organization without bidding it through the VI Department of Public Works. Subsequently, the VI U.S.
Attorney’s Office filed a restraining order, and the governor cancelled the project.

    In response to a deficient sewer system posing environmental hazards, Ohanio Harris, the top advisor to the
governor of the VI, used his influence to form GRM. As a start-up, for-profit company, GRM had no experience
in sewage repair and no assets. However, through the company and without a competitive bid, he improperly
accepted a $3.5 million contract to repair VI sewers. Some of the funds for this contract came from DOI.

     On February 20, 2004, a federal grand jury handed down a 16-count indictment. Defendant Alicia Hansen
is a multi-term former VI Senator and gubernatorial candidate. Esdel Hansen, her husband, is a retired man-
ager from the VI Department of Public Works, who was listed as the Director of Utilities for GRM. Ohanio
Harris, a retired VI police captain, served as a special assistant to the governor while temporarily fulfilling the
duties of GRM’s president. Ashley Andrews is an attorney who has been involved in a variety of construction
projects. He also served as president of GRM. Campbell Malone, a certified public accountant, performed
accounting services for GRM. All pled “not guilty” at the arraignment.

    On May 5, 2006, Ohanio Harris pled guilty to conspiracy and to a conflict of interest. A sentence date has
been scheduled for November 13, 2006. Charges against Esdel Hansen were dismissed. Ashley Andrews and
Campbell Malone were found guilty of wire fraud and conspiracy charges. Jurors were unable to reach a
verdict on corruption charges against Alicia Hansen. It is unclear if prosecutors will seek a retrial.




                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006                 17
     Significant Audits, Evaluations, and Investigations


     U.S. Fish and Wildlife Service
     State Grant Audits Identify Questionable
     Costs and Unreported Program Income
         Audits of grants FWS awarded to six states revealed a potential savings of $511,280. The grants finance up
     to 75 percent of state-sponsored projects, such as developing sites for boating access and acquiring and manag-
     ing natural habitats. A summary of the significant issues disclosed in the audits follows. FWS is working with
     the states to resolve these matters.
         FWS Federal Assistance Grants Administered by the Commonwealth of Virginia, Virginia Marine
         Resources Commission, From July 1, 2003, Through June 30, 2005 (4/28/06):
         The Commonwealth of Virginia (Marine Resources) had not adopted policies and procedures to ensure
         compliance with the 3-percent limitation requirement for state central services costs. Also, the Common-
         wealth had not passed laws assenting to the provisions of the Dingle-Johnson Sport Fish Restoration Act.

         FWS Federal Assistance Grants Administered by the State of Michigan, Department of Natural
         Resources, From October 1, 2002, Through September 30, 2004 (5/1/06):
         The State of Michigan had not reported $325,445 of user fees collected at shooting ranges as program
         income for hunter education grants. We also found issues pertaining to in-kind contributions, control and
         tracking of equipment, and assent legislation.

         FWS Federal Assistance Grants Administered by the Commonwealth of Virginia, Department of
         Game and Inland Fisheries, From July 1, 2002, Through June 30, 2004 (7/13/06):
         The Commonwealth of Virginia (Game and Inland Fisheries) had not reported $114,436 as program income
         from timber sales. We also found issues with the license certifications survey, control and management of
         equipment acquired with grant funds and license revenues, and the lack of assent legislation.

         FWS Federal Assistance Grants Administered by the Commonwealth of Kentucky, Department of
         Fish and Wildlife Resources, From July 1, 2002, Through June 30, 2004 (9/22/06):
         The Commonwealth of Kentucky claimed $66,408 for the purchase of two trucks, which it could not
         support with documentation. We also found that the state did not maintain adequate records to
         account for all real property and had inadequate assent legislation.

         FWS Federal Assistance Grants Administered by the State of Nevada, Department of Wildlife, From
         July 1, 2002, Through June 30, 2004 (9/29/06):
         The State of Nevada claimed $1,991 for costs that were either not allocable to Federal Assistance grants or
         were unnecessary. We also questioned the necessity for these expenses. In addition, we identified issues




18   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                               Significant Audits, Evaluations, and Investigations




pertaining to program income, equipment controls, the annual license certifications, and protection of the
state’s local area network.

FWS Federal Assistance Grants Administered by the State of Wisconsin, Department of Natural
Resources, From July 1, 2002, Through June 30, 2004 (9/20/06):
The State of Wisconsin claimed $3,000 of questionable costs for unauthorized activities related to timber
sales. We also found that the state did not maintain adequate records to account for all real property.




                      Semiannual Report to the Congress - April 1, 2006 - September 30, 2006                 19
     Significant Audits, Evaluations, and Investigations




     U.S. Geological Survey

     USGS Employees Investigated for
     Falsifying Yucca Mountain Data
          This investigation grew out of allegations from the Department of Energy (DOE) OIG that research
     hydrologist Joseph Hevesi and other U.S. Geological Survey (USGS) employees falsified scientific data
     concerning the Yucca Mountain Project (YMP). DOE discovered 19 e-mails either prepared or received by
     Hevesi that dated from 1998 through 2000. The e-mails suggested that he made false statements and
     falsified documents in an effort to circumvent and/or misrepresent compliance with DOE/YMP quality
     assurance requirements.

         Discovery of the e-mails occurred during a review of materials considered for submission to a document
     repository that was open to the public. The repository contained information on Nuclear Regulatory Commis-
     sion regulations concerning issuance of the DOE license for a high-level radioactive waste vault to be con-
     structed at Yucca Mountain, Nevada.

         Investigators interviewed current and former DOE and USGS employees, along with contractor
     employees. They analyzed documents and more than 150,000 e-mails that dated from 1998 to the present.
     Underlying meanings were evaluated to determine actual and/or potential impact on the YMP. The e-mail
     review also focused on the reliability of the scientific data and its compliance with the YMP quality assurance
     requirements.

         After extensive evaluation, investigators determined that the questionable e-mails, and the conduct they
     discussed, either did not occur or could not be substantiated. The investigation further revealed that Hevesi
     and his supervisor, Alan Flint, had limited managerial oversight from DOE and USGS officials during their
     assignment to the YMP. Hevesi’s lack of supervisory oversight from Flint also fueled Hevesi’s frustration with
     the YMP quality assurance protocol requirements.

         The U.S. Attorney in Las Vegas, Nevada, reviewed the facts of the investigation to make a prosecutorial
     determination, which it followed with a letter declining criminal prosecution. Findings of the investigation
     were forwarded to the USGS for review and potential administrative action. A USGS response is pending.




20   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                                                              Appendix One


    Summary of Audit and Related Activities
    From April 1, 2006, Through September 30, 2006


                          Audits and Related Activities Performed by:
	                                        OIG Staff	                OIG Single Audit Staff
	                        Audits/Verifications       Evaluations	   Quality Control Reviews	      Total

    Reports Issued To

    Department/Office
    of the Secretary	              3	                 2	                      3	                   8

    Fish and Wildlife
    and Parks	                    11	                 2	                      0	                  13

    Indian Affairs	                3	                 0	                      0	                   3

    Insular Affairs	               1	                 0	                      0	                   1

    Land and Minerals
    Management	                    2	                 0	                      0	                   2

    Water and Science	             2	                 0	                      0	                   2

    Other Federal
    Agencies	                      0	                 0	                      0	                   0

    Total Reports
    Issued	                      22	                   4	                    3	                   29




                                    Semiannual Report to the Congress - April 1, 2006- September 30, 2006    21
 Appendix Two


     Reports Issued During the 6-Month
     Period That Ended September 30, 2006
     This listing includes all audit-related reports (performance audits, financial audits, evaluations, contract and
     grant audits, verification reviews, and single audit quality assurance reviews) issued during the 6-month period
     that ended September 30, 2006. It provides report number, title, issue date, and monetary amounts identified
     in each report (* Funds To Be Put To Better Use, ** Questioned Cost, *** Unsupported Cost, and **** Lost or
     Potential Additional Revenues).

     Performance Audits, Financial Audits, Evaluations,
     and Verification Reviews
     American Samoa

     P-IN-AMS-0001-2005	              Development Bank of American Samoa: Loan Portfolio Process (09/29/2006)

     Bureau of Indian Affairs

     P-VS-BIA-0008-2006	              Verification Review of Four Recommendations Referred for Implementation
                                      Tracking From Our September 2003 Audit Report “Bureau of Indian Af-
                                      fairs School Construction Planning and Design Process” (No. 2003-I-0070)
                                      (08/03/2006)

     W-VS-BIA-0009-2006	              Verification Review of the Four Recommendations From Our January 2002
                                      Audit Report “Management of Federal Funds, Cheyenne, and Arapaho Tribes
                                      of Oklahoma” (No. 2002-I-0006) (09/28/2006)

     Bureau of Land Management

     W-VS-BLM-0003-2005	              Land Exchanges Conducted by Clark County, Nevada, Under Section 4(g) of
                                      the Southern Nevada Public Land Management Act of 1998 (04/14/2006)

     C-VS-BLM-0007-2006	              Verification Review of Seven Recommendations From Our Audit, “Issuance
                                      of Mineral Patents, Bureau of Land Management, and Office of the Solicitor”
                                      (09/22/2006)

     Bureau of Reclamation

     W-VS-BOR-0001-2006	              Verification Review of Four Recommendations From Our September 2002
                                      Audit, “Review of Central Valley Project Responsibilities Transferred Under
                                      Direct Funding Agreements Between BOR and Three California Water
                                      Authorities” (No. 2002-I-0052) (05/30/2006)

     Multi-Office Audits

     W-IN-MOA-0002-2005	              Hazardous Fuels Reduction Program, Department of the Interior (04/17/2006)

     E-EV-MOA-0017-2005	              Department of the Interior’s Gross Estimated Savings for FY 2004
                                      Competitive Sourcing (06/23/2006)


22
22   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                                                           Appendix Two


C-VS-MOA-0005-2006	     Verification Review of Four Recommendations Considered Implemented
                        From Our Audit, “Department of the Interior: Concessions Management”
                        (08/04/2006)

C-EV-MOA-0003-2006	     Department of the Interior Information Technology (IT) Systems Inventory
                        (08/30/2006)

W-VS-MOA-0002-2006	     Verification Review of Six Recommendations From Our August 2002 Audit
                        Report “Recreational Fee Demonstration Program, National Park Service and
                        Bureau of Land Management” (No. 2002-I-0045) (09/14/2006)

National Park Service

B-EV-NPS-0007-2006	     DC Water and Sewer Payments 2nd Quarter (05/30/2006)

B-EV-NPS-0010-2006	     DC Water and Sewer Payments 3rd Quarter (07/27/2006)

W-IN-NPS-0006-2005	     Administration of the Chesapeake Bay Gateways Network and Grant Program,
                        National Park Service (07/28/2006)

C-VS-NPS-0008-2006 	    Verification Review on Seven Recommendations From Our Audit, “The
                        National Park Service’s Recording of Facility Maintenance Expenditures”
                        (08/04/2006)

V-VS-NPS-0004-2006	     Verification Review of Eight Recommendations From Our May 2004 Audit,
                        “Concession Management and Fee Collection Operations, Virgin Islands
                        National Park, National Park Service” (No. V-IN-NPS-0004-2003) (09/28/2006)

Office of Special Trustee

Q-IN-OST-0003-2006	     Management Letter Concerning Issues Identified During the Audit of the
                        Office of the Special Trustee for American Indians Financial Statements for
                        Fiscal Years 2005 and 2004 (04/18/2006)

Contract and Grant Audits
National Park Service

X-GR-NPS-0005-2005	     Audit of Costs Claimed by the Wolf Trap Foundation for the Performing Arts
                        (04/20/2006)

W-CX-NPS-0009-2005	     Audit of Claim Submitted by Swank Enterprises Under National Park Service
                        Contract No. C157404167 (09/29/2006) **$73,109 ***$97,212

U.S. Fish and Wildlife Service

R-GR-FWS-0022-2005	     U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                        Commonwealth of Virginia, Virginia Marine Resources Commission, From
                        July 1, 2003, Through June 30, 2005 (04/28/2006)



                       Semiannual Report to the Congress - April 1, 2006 - September 30, 2006          23
 Appendix Two


     R-GR-FWS-0010-2005 	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                  State of Michigan, Department of Natural Resources, From October 1, 2002,
                                  Through September 30, 2004 (05/01/2006) *$325,445

     R-GR-FWS-0021-2005	          U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                  Commonwealth of Virginia, Department of Game and Inland Fisheries, From
                                  July 1, 2002, Through June 30, 2004 (07/13/2006) *$114,436

     R-GR-FWS-0024-2004	          U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                                  the State of Wisconsin, Department of Natural Resources, From July 1, 2002,
                                  Through June 30, 2004 (09/20/2006) **$3,000

     R-GR-FWS-0013-2005	          U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                                  the Commonwealth of Kentucky, Department of Fish and Wildlife Resources,
                                  From July 1, 2002, Through June 30, 2004 (09/22/2006) ***$66,408

     R-GR-FWS-0011-2005	          U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                  State of Nevada, Department of Wildlife, From July 1, 2002, Through June 30,
                                  2004 (09/29/2006) *$71,260 **$1,991

     U.S. Geological Survey

     B-CX-GSV-0003-2006	          Information on Local Expenditures in Afghanistan Billed Under Participating
                                  Agency Service Agreement No. 306-P-00-04-00566-00 Between the United
                                  States Agency for International Development and the U.S. Geological Survey
                                  (09/07/2006)

     Single Audit Quality Control Reviews
     B-QC-MOA-0006-2006	          National Fish and Wildlife Foundation Quality Control Review (06/27/2006)

     B-QC-MOA-0008-2006	          Ute Mountain Ute Tribe Quality Control Review (08/04/2006)

     B-QC-MOA-0007-2006	          Picuris Pueblo Quality Control Review (08/08/2006)




24           Semiannual
     Semiannual
       24                 Report
                Report to the    to the Congress
                              Congress              - April
                                        - April 1, 2006     1, 2006 - September
                                                         - September   30, 2006 30, 2006
                                                                                    Appendix X Three
                                                                                      Appendix


Monetary Impact of Audit and Evaluation Activities
From April 1, 2006, Through September 30, 2006


	   Activity	       Questioned Costs**	Funds To Be Put To Better Use	   Revenues	         Total

Bureau of
Indian Affairs	             0	                           0	                0	               0
Bureau of Land
Management	                 0	                           0	                0	               0
Bureau of
Reclamation	                0	                           0	                0	               0
U.S. Fish and
Wildlife Service	        $71,399	                  $511,141	               0	           $582,540
Insular Areas*	             0	                           0	                0	               0
Multi-Office	               0	                           0	                0	               0
Office of the 	
Secretary	                  0	                           0	                0	               0
National Park
Service*	                $170,321	                       0	                0	           $170,321
Total	                  $241,720	                 $511,141	                0	          $752,861


* Includes monetary impact of nonfederal funds.
** Unsupported costs are included in questioned costs.




                             Semiannual Report to the Congress - April 1, 2006 - September 30, 2006   25
                                                                                                      25
     Appendix Four


       Audit and Evaluation Resolution Activities
       Table I: Inspector General Reports With Questioned Costs*


       		                                              Number of Reports	   Questioned Costs	   Unsupported Costs


       A.	   For which no management
       	     decision had been made by the
       	     commencement of the reporting
       	     period.	                                          37	            $15,748,929	         $4,184,249

       B.	 Which were issued during the
       	 reporting period.	                                     4	               $241,720	           $163,620

       	     	   Total (A+B)	                                  41	            $15,990,649	         $4,347,869

       C.	 For which a management decision
       	 was made during the reporting
       	 period. 	                                             10	             $3,257,060	           $361,532

       		        (i) Dollar value of
       		        recommendations that
       		        were agreed to by
       		        management. 	                                  7	             $2,101,351	           $361,532

       		        (ii) Dollar value of
       		        recommendations that
       		        were not agreed to by
       		        management. 	                                  3	             $1,155,709	                 0

       D.	 For which no management
       	 decision had been made by the
       	 end of the reporting period. 	                        31	            $12,733,589	         $3,986,377

       E. 	 For which no management
       	 decision was made within
       	 6 months of issuance. 	                               27	            $12,491,869	         $3,822,717




       * Unsupported costs are included in questioned costs.




26     Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                                                                                  Appendix
                                                                                                             Appendix Four Four


Audit and Evaluation Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put To Better Use


		                                                    Number of Reports	                               Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.*	                                                   13	                                 $23,146,448

B.	 Which were issued during the
	 reporting period. 	                                              3	                                     $511,141

	     	   Total (A+B)	                                            16	                                 $23,657,589

C.	 For which a management decision
	 was made during the reporting period. 	                          3	                                   $7,028,111

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 	                            3	                                   $7,028,111

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 	                        0	                                               0

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                             13	                                 $16,629,478

E.	 For which no management decision
	 was made within 6 months of issuance. 	                         12	                                 $16,232,773




* Beginning balance differs from the April 2006 Semiannual Report ending balance due to $1,600,000 that was reinstated.




                                  Semiannual
                                   SemiannualReport
                                              Reporttotothe
                                                          theCongress
                                                              Congress- April
                                                                        - April1,1,2006
                                                                                    2006- September
                                                                                          - September30,
                                                                                                      30,2006
                                                                                                          2006                2727
 Appendix Four


     Audit and Evaluation Resolution Activities
     Table III: Inspector General Reports
     With Lost or Potential Additional Revenues

     		                                                    Number of Reports	                               Dollar Value


     A.	   For which no management
     	     decision had been made by
     	     the commencement of the
     	     reporting period.*	                                          7	                               $176,310,640

     B.	 Which were issued during the
     	 reporting period. 	                                              0	                                              0

     	     	   Total (A+B)	                                             7	                               $176,310,640

     C.	 For which a management decision
     	 was made during the reporting period. 	                          3	                                 $83,900,000

     	 (i)	 Dollar value of recommendations
     		 that were agreed to by management. 	                            3	                                 $83,900,000

     	 (ii)	 Dollar value of recommendations
     		 that were not agreed to by management. 	                        0	                                              0

     D.	 For which no management decision
     	 had been made by the end of the
     	 reporting period. 	                                              4	                                 $92,410,640

     E.	 For which no management decision
     	 was made within 6 months of issuance. 	                          4	                                 $92,410,640




     * Beginning balance differs from the April 2006 Semiannual Report ending balance by $2,758,000 (increase) because of corrective
     adjustments.




28   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                                                                   Appendix Five


Summary of Audit and Evaluation Reports Over 6
Months Old Pending Management Decisions at
September 30, 2006
This listing includes a summary of audit (performance, financial, contract [except pre-awards], and grant) and
evaluation reports that were over 6 months old as of September 30, 2006, and still pending a management
decision. It provides report number, title, issue date, number of unresolved recommendations, and unresolved
amount of monetary benefits identified in the report.

Performance Audits, Financial
Audits, and Evaluations
Bureau of Indian Affairs

W-FL-BIA-0047-2002	             School Construction Program, Bureau of Indian Affairs (02/24/2004);
                                2 Recommendations; $2,100,000 Unresolved

C-IN-BIA-0015-2004	             Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds
                                (08/29/2005); 1 Recommendation; $10,200,000 Unresolved

Bureau of Land Management

W-IN-BLM-0009-2003	             Audit of Oil and Gas Permitting Process, Bureau of Land Management
                                (02/13/04); 1 Recommendation

Multi-Office Audits

A-EV-MOA-0006-2004	             Annual Evaluation of the Information Security Program of the Department of
                                the Interior (10/06/2004); 2 Recommendations

A-IN-MOA-0004-2004	             Department of the Interior’s Use of Wireless Technologies (12/06/2004);
                                6 Recommendations

E-IN-MOA-0008-2004	             Department of the Interior Workers’ Compensation Program (05/09/2005);
                                2 Recommendations

A-EV-MOA-0001-2005	             The Department of the Interior’s Process to Manage Information Technology
                                Security Weaknesses (09/23/2005); 3 Recommendations

X-IN-MOA-0009-2006	             Management Letter Concerning Issues Identified During the Audit of the
                                Department of the Interior’s Financial Statements for Fiscal Years 2005 and
                                2004 (02/28/2006); 2 Recommendations




                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006            29
Appendix Five
  Appendix  Five


     Contract and Grants
     National Park Service

     2000-E-0607	                Costs Billed By Harrison & Palmer, Inc., From April 1, 1996, Through June
                                 23, 1999, Under National Park Service Contract No. 143CX300094906
                                 (08/08/2000); 1 Recommendation; $52,703 Unresolved

     2000-E-0706	                Audit of Costs Billed by Southern Insulation, Inc., From November 21,
                                 1994, Through June 1, 1999, Under National Park Service Contract No.
                                 1443CX300094906 (09/29/2000); 1 Recommendation; $86,262 Unresolved

     2001-E-0035	                Audit of Costs Billed by Callas Contractors, Inc., From January 1,
                                 1997, Through June 1, 1999, Under National Park Service Contract No.
                                 1443CX300094906 (11/07/2000); 1 Recommendation; $16,425 Unresolved

     2001-E-0036	                Audit of Costs Billed by Capitol Mechanical Contractors, Inc., From
                                 January 1, 1997, Through June 1, 1999, Under National Park Service
                                 Contract No. 1443CX300094906 (11/07/2000); 1 Recommendation;
                                 $98,194 Unresolved

     2001-E-0244	                Audit of Costs Billed by E.M.S. Consultants, Inc., From May 1,
                                 1996, Through June 1, 1999, Under National Park Service Contract
                                 No.1443CX300094906 (02/27/2001); 1 Recommendation;
                                 $327,330 Unresolved

     2001-E-0336	                Audit of Costs Billed By JCM Control Systems, Inc., From January 1,
                                 1994, Through July 16, 1999, Under National Park Service Contract No.
                                 1443CX300094906 (04/23/2001); 1 Recommendation; $109,865 Unresolved

     2002-E-0002	                Audit of Amounts Billed by the Community Central Energy Corporation
                                 From October 1, 1993, Through September 30, 2000, Under National Park
                                 Service Contract No. CX-4000-0-0023 (12/19/2001); 1 Recommendation;
                                 $779,274 Unresolved

     U.S. Fish and Wildlife Service

     R-GR-FWS-0029-2003	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                                 the State of Washington, Department of Fish and Wildlife, From July 1, 2000,
                                 Through June 30, 2002 (03/21/2004); 1 Recommendation

     R-GR-FWS-0025-2003	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                 State of New York, Department of Environmental Conservation, Division of
                                 Fish, Wildlife, and Marine Resources, From April 1, 2000, Through March 31,
                                 2002 (05/06/2004); 5 Recommendations; $980,616 Unresolved

     R-GR-FWS-0014-2004	         U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                                 Commonwealth of Puerto Rico, Department of Natural and Environmental
                                 Resources, From July 1, 2001, Through June 30, 2003 (09/19/2005);
                                 9 Recommendations


30
30    SemiannualReport
     Semiannual Reporttotothe
                           theCongress
                              Congress-April
                                       - April1,1,2006
                                                   2006- -September
                                                           September30,
                                                                     30,2006
                                                                         2006
                                                                                         Appendix Five


R-GR-FWS-0008-2004	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by the
                       State of Idaho, Department of Fish and Game, From July 1, 2001, Through
                       June 30, 2003 (09/30/2005); 15 Recommendations; $519,469 Unresolved

R-GR-FWS-0005-2005	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                       the State of West Virginia, Division of Natural Resources, From July 1, 2002,
                       Through June 30, 2004 (02/06/2006); 12 Recommendations; $670,427
                       Unresolved

R-GR-FWS-0004-2005	    U.S. Fish and Wildlife Service Federal Assistance Grants Administered by
                       the State of Illinois, Department of Natural Resources, From July 1, 2002,
                       Through June 30, 2004 (03/31/2006); 12 Recommendations;
                       $553,977 Unresolved




                      Semiannual Report to the Congress - April 1, 2006 - September 30, 2006           31
 Appendix SixSix
   Appendix


     Summary of Performance Audit, Financial Audit, and
     Evaluation Reports Over 6 Months Old
     Pending Corrective Action at September 30, 2006
     This is a listing of performance audits, financial audits, and evaluation reports over 6 months old with
     management decisions for which corrective action has not been completed. It provides report number,
     title, issue date, and the number of recommendations without final corrective action. These audits and
     evaluations continue to be monitored by the Focus Leader for Management Control and Audit Follow-
     up, Assistant Secretary — Policy, Management, and Budget, for completion of corrective action.

     Bureau of Indian Affairs

     2003-I-0055	                  Evaluation of the Bureau of Indian Affairs’ Process to Approve Tribal Gaming
                                   Revenue Allocation Plans (06/11/2003); 3 Recommendations

     C-IN-BIA-0015-2004	           Bureau of Indian Affairs Use of Facilities Improvement and Repair Funds	
                                   (08/29/2005); 2 Recommendations

     X-IN-BIA-0006-2005	           Independent Auditors’ Report on the Bureau of Indian Affairs’ Financial
                                   Statements for Fiscal Years 2005 and 2004 (12/20/2005); 7 Recommendations

     X-IN-BIA-0010-2006	           Management Issues Identified During the Audit of the Bureau of Indian
                                   Affairs’ Fiscal Years 2005 and 2004 Financial Statements (03/03/2006); 11
                                   Recommendations

     Bureau of Land Management

     1999-I-0808	                  Cultural Resource Management, Bureau of Land Management (09/30/1997);
                                   2 Recommendations

     W-IN-BLM-0009-2003	           Audit of Oil and Gas Permitting Process, Bureau of Land Management
                                   (02/13/2004); 2 Recommendations

     C-IN-BLM-0013-2005	           Public Safety Issues at the Saginaw Hill Property Bureau of Land
                                   Management (03/15/2005); 2 Recommendations

     Minerals Management Service

     X-IN-MMS-0010-2005	           Independent Auditors’ Report on the Minerals Management Service’s
                                   Financial Statements for Fiscal Years 2005 and 2004 (12/08/2005);
                                   1 Recommendation	

     Multi-Office Audits

     1996-I-1267	                  Inspection and Enforcement Program and Selected Activities, Bureau of Land
                                   Management (09/30/1996); 3 Recommendations

     C-IN-MOA-0042-2003	           Fleet Management Operations, U.S. Department of the Interior (02/09/2004);
                                   5 Recommendations


32   Semiannual Report to the Congress -April
                                       - April 1,
                                               1, 2006
                                                  2006 -- September
                                                          September 30,
                                                                    30, 2006
                                                                        2006
                                                                                          Appendix
                                                                                           Appendix
                                                                                           AppendixSix
                                                                                                     Six
                                                                                                    Six


C-EV-MOA-0094-2003	    Department of the Interior Contracting for Temporary and Critical Staffing
                       Needs (09/30/2004); 5 Recommendations

E-IN-MOA-0008-2004	    Department of the Interior Workers’ Compensation Program (05/09/2005);
                       2 Recommendations

X-IN-MOA-0027-2004	    U.S. Department of the Interior, Interior Trust Funds Management
                       (09/10/2004); 7 Recommendations

C-IN-MOA-0049-2004	    Department of the Interior Concessions Management (06/13/2005);
                       5 Recommendations

C-IN-MOA-0040-2004	    U.S. Department of the Interior Hazardous Materials Site Management
                       (08/22/2005); 7 Recommendations

X-IN-MOA-0011-2005	    Independent Auditors’ Report on the Department of the Interior’s Annual
                       Report on Performance and Accountability for Fiscal Year 2005 (11/15/2005);
                       42 Recommendations

X-IN-MOA-0009-2006	    Management Letter Concerning Issues Identified During the Audit of the De-
                       partment of the Interior’s Financial Statements for Fiscal Years 2005 and 2004
                       (02/28/2006); 2 Recommendations

C-IN-MOA-0006-2005	    Modified Water Deliveries to Everglades National Park (03/31/2006);
                       5 Recommendations
National Park Service
1998-I-0406	           Follow-up of Recommendations Concerning Utility Rates Imposed by the
                       National Park Service (04/15/1998); 5 Recommendations

2002-I-0045	           Recreational Fee Demonstration Program (08/19/2002); 2 Recommendations

2003-I-0013	           Yosemite National Park’s Museum Collection, National Park Service
                       (03/31/2003); 1 Recommendation

A-IN-NPS-0074-2003	    Improvements Needed in Managing Information Technology System Security,
                       National Park Service (03/29/2004); 5 Recommendations

X-IN-NPS-0009-2005	    Independent Auditors’ Report on the National Park Service’s Financial State-
                       ments for Fiscal Years 2005 and 2004 (12/21/2005); 2 Recommendations

X-IN-NPS-0008-2006	    Management Letter Concerning Issues Identified During the Audit of the
                       National Park Service’s Financial Statements for Fiscal Years 2005 and 2004
                       (01/31/2006); 1 Recommendation

P-IN-NPS-0074-2004	    Hawaii Volcanoes National Park: Improved Operations Should Enhance
                       Stewardship and Visitor Experience (03/31/2006); 10 Recommendations




                      Semiannual Report to the Congress - April 1, 2006 - September 30, 2006            33
 Appendix Six


     Office of the Secretary

     2003-I-0056	                Evaluation Report on the Department of the Interior Working Capital Fund
                                 (06/16/2003); 2 Recommendations

     E-IN-OSS-0058-2004	         Independent Auditors’ Report on the Departmental Offices’ Financial
                                 Statements for Fiscal Years 2004 and 2003 (12/06/2004); 9 Recommendations

     E-IN-OSS-0008-2005	         Management Issues Identified During the Audit of Departmental
                                 Offices’ Fiscal Years 2004 and 2003 Financial Statements (02/24/2005);
                                 6 Recommendations

     E-EV-BIA-0063-2003	         Process Used to Assess Applications to Take Land into Trust for Gaming
                                 Purposes (09/01/2005); 2 Recommendations (The open recommendations
                                 pertain to the National Indian Gaming Commission.)

     Office of the Special Trustees for American Indians

     1997-I-1169	                Judgment Funds Awarded to the Papago Tribe of Arizona (09/15/1997);
                                 1 Recommendation

     Q-IN-OST-0002-2005	         Independent Auditors’ Report on the Tribal and Other Trust Funds and
                                 Individual Indian Monies Trust Funds Financial Statements for Fiscal Years
                                 2005 and 2004 Managed by the Office of the Special Trustee for American
                                 Indians (11/22/2005); 2 Recommendations

     U.S. Fish and Wildlife Service

     1997-I-1305	                Audit Report on the Automated Law Enforcement System, U.S. Fish and
                                 Wildlife Service (09/30/1997); 1 Recommendation

     V-IN-VIS-0078-2004	         Fish and Wildlife Grants for Boating Access Facilities — Department of
                                 Planning and Natural Resources (08/19/2005); 2 Recommendations

     X-IN-FWS-0017-2005	         Audit of U.S. Fish and Wildlife Service Administrative Costs to Support
                                 Wildlife and Sport Fish (08/29/2005); 2 Recommendations

     X-IN-FWS-0003-2006	         Management Letter Concerning Issues Identified During the Audit of the Fish
                                 and Wildlife Service’s Financial Statements for Fiscal Years 2005 and 2004
                                 (02/27/2006); 3 Recommendations




34   Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                                                                    Appendix Seven
                                                                                                      Appendix Six


Summary of Insular Area Reports With Open
Recommendations Over 6 Months Old
Note: These Insular Area reports contain recommendations made specifically to Insular Area governors and
other Insular Area officials, who do not report to the Secretary and are not subject to the policy, guidance, and
administrative oversight established by the Assistant Secretary - Policy, Management, and Budget.

PERFORMANCE AUDITS
American Samoa

P-IN-AMS-0117-2003	              American Samoa: Top Leadership Commitment Needed to Break the Cycle of
                                 Fiscal Crisis (09/19/2005); 3 Recommendations

U.S. Virgin Islands

1997-I-0040	                     Division of Agriculture, Department of Economic Development and
                                 Agriculture, Government of the Virgin Islands (10/21/1996);
                                 1 Recommendation

1998-I-0468	                     Followup of Recommendations Relating to the Bureau of Corrections,
                                 Department of Justice, Government of the Virgin Islands (05/29/1998);
                                 1 Recommendation

1999-I-0365	                     Followup of Recommendations Relating to Personnel Management Practices,
                                 Division of Personnel, Government of the Virgin Islands (03/26/1999);
                                 1 Recommendation; $8,300,000

2001-I-0107	                     Administrative Functions, Legislature of the Virgin Islands (12/29/2000);
                                 8 Recommendations; $1,320,293

2002-I-0001	                     Virgin Islands Fire Service, Government of the Virgin Islands (10/30/2001);
                                 2 Recommendations; $2,014,994

2002-I-0009	                     Virgin Islands Housing Finance Authority, Government of the Virgin Islands
                                 (12/31/2001); 1 Recommendation

2002-I-0010	                     Administrative Functions, Virgin Islands Police Department, Government of
                                 the Virgin Islands (02/13/2002); 6 Recommendations; $2,592,873

2002-I-0042	                     Federal Highway Grants, Department of Public Works, Government of the
                                 Virgin Islands (08/16/2002); 5 Recommendations; $462,747

2002-I-0046	                     Professional Service Contracts, Government of the Virgin Islands
                                 (09/30/2002); 1 Recommendation; $1,019,791

2003-I-0002	                     Public Finance Authority, Government of the Virgin Islands (11/22/2002);
                                 9 Recommendations; $30,524,687



                               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006               35
 Appendix Seven


     2003-I-0003	                Compliance With the Memorandum of Understanding Between the
                                 Governor of the Virgin Islands and the Secretary of the Interior (01/06/2003);
                                 6 Recommendations

     2003-I-0067	                Emergency Services Surcharge Collections by Innovative Telephone
                                 Corporation on Behalf of the Government of the Virgin Islands (09/26/2003);
                                 1 Recommendation; $256,380

     V-IN-VIS-0001-2004	         Procurement Activities, Virgin Islands Port Authority, Government of the
                                 Virgin Islands (03/28/2005); 10 Recommendations; $852,013

     V-IN-VIS-0110-2003	         Indirect Cost Fund, Government of the Virgin Islands (06/22/2005);
                                 2 Recommendations

     V-IN-VIS-0078-2004	         Fish and Wildlife Grants for Boating Access Facilities, Government of the
                                 Virgin Islands (08/19/2005); 1 Recommendation; $30,600

     V-IN-VIS-0100-2004	         Contracts for Facility Improvements, Virgin Islands Fire Service, Government
                                 of the Virgin Islands (09/20/2005); 2 Recommendations; $81,500	




36   Semiannual Report to the Congress - April
                                         October
                                               1, 2006
                                                   1, 2005
                                                        - September
                                                            - March 31,
                                                                     30,2006
                                                                         2006
                                                                                          Appendix
                                                                                        Appendix   Seven
                                                                                                 Eight
                                                                                                 Seven


Reports Issued on Information Security
NSM-EV-MOI-0002-2006	    Annual Evaluation of the Department’s Information Security Program
                         (09/2006)

NSM-EV-NBC-0010-2006	    Vulnerability Assessment of Pembroke (09/2006)

NSM-EV-PCI-0014-2006	    Limited Review of Personally Identifiable Information Safeguards at the
                         Department of the Interior (09/2006)

NSM-EV-MMS-0009-2006	    Vulnerability Assessment Technical Report of MMS Third Party Service
                         Provider US internetworking (USi) (09/27/2006)

NSM-EV-OIG-0003-2006	    Evaluation Report for the Enterprise Services Network (ESN) (09/07/2006)

NSM-EV-FWS-0015-2006	    Enterprise Services Network Configuration Report (09/07/2006)

NSM-EV-MOI-0001-2006	    Evaluation Report for the Department of the Interior’s Plan of Actions &
                         Milestones Process (09/07/2006)

NSM-EV-NBC-0012-2006	    National Business Center-Reston Trusted Insider Threat Evaluation
                         (08/28/2006)

NSM-EV-FWS-0006-2006	    Penetration Test of FWS (08/28/2006)

NSM-EV-OSM-0007-2006	    Penetration Test of OSM (08/28/2006)

NSM-EV-MMS-0008-2006	    Penetration Test of MMS (08/28/2006)

NSM-EV-NBC-0011-2006	    Penetration Test of NBC (08/28/2006)




                        Semiannual
                         SemiannualReport
                                    Reporttotothe
                                               theCongress
                                                   Congress- -April
                                                               October
                                                                    1, 2006
                                                                         1, 2005
                                                                             - September
                                                                                  - March 31,
                                                                                          30, 2006   37
General Information
  Appendix  Nine


      Cross-references to the Inspector General Act
                                                                                                         Page
      Section 4(a)(2)            Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)            Significant Problems, Abuses, and Deficiencies                           1-20

      Section 5(a)(2)            Recommendations for Corrective Action With Respect to Significant        1-20
                                 Problems, Abuses, and Deficiencies

      Section 5(a)(3)            Significant Recommendations From Agency’s Previous Reports on           32-36
                                 Which Corrective Action Has Not Been Completed

      Section 5(a)(4)            Matters Referred to Prosecutive Authorities and Resulting Convictions      ii

      Section 5(a)(5)            Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)            Audit Reports Issued During the Reporting Period                        21-24

      Section 5(a)(7)            Summary of Significant Reports                                           1-20

      Section 5(a)(8)            Statistical Table – Questioned Costs                                      26

      Section 5(a)(9)            Statistical Table – Recommendations That Funds Be Put to Better Use       27

      Section 5(a)(10)           Summary of Audit Reports Issued Before the Commencement of the          29-31
                                 Reporting Period for Which No Management Decision Has Been Made

      Section 5(a)(11)           Significant Revised Management Decisions Made During the                 N/A
                                 Reporting Period

      Section 5(a)(12)           Significant Management Decisions With Which the Inspector General        N/A
                                 Is in Disagreement

      Section 5(a)(13)           Information Described Under Section 804(b) of the Federal Financial       37
                                 Management Improvement Act of 1996




      *N/A: Not applicable to this reporting period




38    Semiannual Report to the Congress - April 1, 2006 - September 30, 2006
                                                                       General Information
                                                                         Appendix  Eight




                                           By Mail
                                   U.S. Department of the Interior
                                    Office of Inspector General
                                          1849 C St. NW
                                        Mail Stop 5341, MIB
                                      Washington, DC 20240




                                                            By Internet
                                                              www.doioig.gov




                                                                 By Phone
                                                                     202.208.4618



By Fax
202.208.4998




               Semiannual Report to the Congress - April 1, 2006 - September 30, 2006    39
